HHS/OIG, Audit - "Review of Supplemental Executive Retirement Plan Costs
Claimed by Blue Cross Blue Shield of South Carolina for Medicare Reimbursement
for Fiscal Years 19992004," (A-07-07-00234
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Supplemental Executive Retirement Plan Costs
Claimed by Blue Cross Blue Shield of South Carolina for Medicare Reimbursement
for Fiscal Years 19992004," (A-07-07-00234)
October 19, 2007
Complete
Text of Report is available in PDF format (357 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of the
Supplemental Executive Retirement Plan (SERP) costs that Blue Cross Blue Shield
of South Carolina (South Carolina) claimed for Medicare reimbursement for fiscal
years (FY) 19992004.
South Carolinas claim for $5,920,947 in SERP costs for FYs
19992004 included some costs that were unreasonable and therefore unallowable
for Medicare reimbursement.  However, we were unable to determine the impact of
these unallowable compensation costs on SERP costs because South Carolina did
not provide us with the necessary documentation to support its SERP
calculations.  Therefore, we are setting aside the $5,920,947 in claimed SERP
costs for adjudication by the Centers for Medicare & Medicaid Services (CMS).
We recommended that South Carolina work with CMS to
determine the allowability of $5,920,947 in SERP costs claimed for FYs
19992004.  South Carolina concurred with our recommendation.